February 12, 2008

ALEXANDER E. LAZAROFF
CHIEF POSTAL INSPECTOR

DEBORAH M. GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Management Advisory – Review of the Postal Service’s Personnel
         Security Process (Report Number SA-MA-08-001)

This report presents the results of our self-initiated review of the Postal Service’s
personnel security process (Project Number 07YG055SA000). We conducted this
review to examine the Postal Service’s personnel security processes and compare them
with processes of other federal and selected private sector entities. This is one in a
series of reviews we plan to conduct in this area. See Appendix A for additional
information about this review.

                                             Background
The Postal Service must maintain public trust and security of the mail as well as assure
confidence in the reliability and integrity of its employees. Employees have the right to
expect a safe work environment, and the public has a right to expect the Postal Service
to maintain the privacy of the mail. Federal law makes it clear that protection of mail,
Postal Service funds, and property is the responsibility of every Postal Service
employee.

The Postal Service must ensure that individuals selected for employment have been
carefully screened, evaluated, and determined suitable for Postal Service employment
so the conduct of these individuals will reflect favorably on the organization.1 The
Postal Service’s personnel security process encompasses screening for suitability and
granting security clearances. All Postal Service employees undergo a suitability
screening; in addition, depending on their positions, some employees may need
security clearances, which require a more extensive background investigation.

A suitability screening determines whether applicants possess the necessary skills,
abilities, and qualifications to perform various jobs in the Postal Service. The suitability
screening process is designed to disqualify ineligible or unsuitable applicants. The
Postal Service’s Human Resources Selection Evaluation and Recognition Office

1
 Postal Handbook EL-312, Employment & Placement, Section 511.11, Rights to Workplace Safety & Mail Security,
September 2001. Postal Service Handbook AS-805, Information Security, Chapter 5, Personnel Security, Policy &
General Requirements, March 2002 (updated with Postal Bulletin revisions through November 23, 2006).
Review of the Postal Service’s                                                                          SA-MA-08-001
 Personnel Security Process


provides suitability guidance to area and district human resources (HR) personnel
throughout the country. When evaluating and determining an applicant’s suitability, HR
personnel conduct, at a minimum, the following checks: age, employment, criminal and
military service history, a National Agency Check with Inquiries (NACI)2 for career
applicants, and a Special Agency Check with Inquiries (SACI)3 for noncareer applicants.
The Office of Personnel Management (OPM) conducts the NACI and SACI, which
include a Federal Bureau of Investigation (FBI) fingerprint check, for the Postal Service.

The Chief Postal Inspector or designee is responsible for issuing security clearances. If
an employee needs a security clearance, the type of clearance granted depends on the
sensitivity of the position held. A sensitive clearance is considered for employees who
have access to sensitive information restricted to the highest levels of the federal
government, U.S. Postal Service Office of Inspector General (OIG) files, U.S. Postal
Inspection Service (USPIS) files, national security (classified) information, or sensitive
information essential to executive decision making. The sensitive level of clearance
within the Postal Service encompasses both national security4 and public trust5
positions.

Postal Service employees who require a security clearance undergo a more extensive
background investigation. A background investigation is conducted to help develop
information about the person’s character, reputation, and allegiance to the United States
to determine eligibility for appointment to, or suitability for retention in, a Postal Service
position. OPM guidance for conducting background investigations establishes specific
personnel security criteria and procedures for the federal government. Although the
Postal Service is not subject to Title 5 of the Code of Federal Regulations (CFR),6 it
generally follows OPM guidance when conducting background investigations and also
utilizes OPM to conduct portions of the investigation. Background investigations and
the issuance of proper security clearances are key elements in protecting national
security, ensuring the integrity of the mail, and protecting Postal Service employees,
customers, and assets.




2
  The NACI is a background investigation inquiry that includes FBI name check, fingerprint check of the FBI’s criminal
arrest database, Defense Clearance Investigation Index check, OPM Security/Suitability Investigations Index check,
and a local law enforcement check of an applicant’s residence, employment, and education for the last 5 years.
3
  The SACI includes the same checks as the NACI with the exception of a FBI name check, education verification,
reference checks, and residence checks.
4
  National security clearances include Confidential, Secret, Top Secret, and Sensitive Compartmented Information.
5
  Administrative Support Manual 13, Section 272, Personnel Security Clearance, July 1999 (updated with Postal
Bulletin revisions through December 2006) states that public trust positions are responsible for managing programs
or operations that require a high degree of public trust because of their ability to affect the accomplishment of the
activity’s mission to a significant degree.
6
  Title 5 CFR establishes federal government guidelines, criteria, and procedures for hiring practices. Specifically, 5
CFR 731 addresses suitability requirements; 5 CFR 732 pertains to national security positions; and 5 CFR 736
pertains to personnel investigations.


                                                           2
Review of the Postal Service’s                                                                   SA-MA-08-001
 Personnel Security Process


                                                 Results
The Postal Service’s personnel security processes and procedures for conducting
background checks and granting security clearances were comparable to those used by
other federal agencies and private sector entities. For example, an applicants’ age,
prior employment, fingerprints, criminal record, military service, and selective service
status are checked to determine whether an applicant is suitable for employment. See
Appendices B and C for detailed benchmarking results.

However, in our benchmarking, we noted differences in the following two areas:
background checks of contract employees, and policies requiring employees to report
arrests and convictions. The Postal Service could potentially reduce its security risk to
employees, customers, the mail, and critical assets if it adopted policies and procedures
in these areas similar to those used by some of the benchmarked agencies.

Background Checks of Contract Employees

Contractors are defined as individuals who provide services to the Postal Service and
have access to occupied Postal Service facilities, information and resources, including
computer systems. These individuals must obtain clearance from the Postal Service
before being provided that access. Postal Service procedures require contractors to
certify that contract employees have met suitability and security requirements. In
addition, for a basic clearance, the Postal Service contracting officer, contracting
officer’s representative (COR), or designee verifies the data submitted by contractors,
with no involvement from HR.

The Postal Service issues four levels of clearances for contractors: basic, non-
sensitive, sensitive, and interim-sensitive. See Table 1 for contractor clearance levels.

Table 1: Levels of Clearances Granted to Postal Service Contract Employees

    Level of Clearance                                      Definition
                                 Clearance required for individuals who have access to Postal
            Basic                Service facilities, but do not require a higher level of clearance.
                                 Clearance required for individuals who have access to Postal
                                 Service information that, if compromised, would have limited
        Non-sensitive            impact on the mission of the Postal Service; or who have
                                 restricted access to Postal Service computer systems such as
                                 word processing or data entry.
                                 Clearance required for individuals who have access to
                                 information that, if compromised, would cause significant
                                 financial loss, inconvenience, or delay in the performance of
                                 the mission of the Postal Service; or who have physical access
          Sensitive
                                 to restricted areas in Postal Service facilities, such as computer
                                 rooms and tape libraries; or who have access to computer
                                 systems such as on-site or remote terminals for systems
                                 development or accessing sensitive systems or data.
                                 Preliminary clearance granted for individuals for whom there is
       Interim-sensitive         a priority need to begin work before completion of a sensitive
                                 clearance.


                                                      3
Review of the Postal Service’s                                                                        SA-MA-08-001
 Personnel Security Process



The level of clearance issued is determined by the scope and the nature of the work the
individual will perform. At the time of the contract award, the Postal Service contracting
officer, COR, or designee provides the contractor with the required clearance forms and
receives the forms back from the contractor upon completion. The contracting officer,
COR, or designee reviews these forms for completeness and adequacy. For a basic
clearance, if the information provided by the contractor is satisfactory, the contracting
officer, COR, or designee authorizes issuance of an identification badge to the contract
employee.7 For a higher clearance (non-sensitive, sensitive, or interim-sensitive), the
contracting officer, COR, or designee reviews the forms submitted by the contractor and
forwards them to the Security Investigations Service Center (SISC) for review and
issuance of a security clearance. Individuals may begin work when they receive
notification that the security clearance has been granted.

Benchmarking Results

The Social Security Administration (SSA), Internal Revenue Service (IRS), and
Tennessee Valley Authority (TVA) do not rely on contractor certifications to ensure that
contract employees meet personnel security requirements. These agencies’ HR or
personnel security departments, rather than the contracting officers, make suitability
determinations for contract employees.

Potential Gap

Postal Service HR personnel do not certify or verify whether contract employees who
require basic clearances have met Postal Service security requirements. Allowing
contractors to certify that their employees meet Postal Service security requirements
and relying on the contracting officer, COR, or designee to verify the data provided by
the contractor could expose Postal Service employees, customers, the mail, and critical
assets to unnecessary risk. Alternatively, certification or verification by HR or security
personnel could help ensure all contract employees meet security requirements and
potentially reduce the risk.

Policy Requiring Employees to Report Arrests and Convictions

Except for a policy covering sex offenders, Postal Service policy does not specifically
require Postal Service employees to inform management if they are arrested or
convicted. According to the principles of ethical conduct set forth in the Postal Service’s
Employment and Labor Relations Manual, employees must not engage in criminal,
dishonest, notoriously disgraceful, immoral, or other conduct prejudicial to the Postal
Service. Conviction for a violation of any criminal statute may be grounds for
disciplinary action against an employee, including removal of the employee, in addition
to any other penalty imposed by law. However, Postal Service policy does not

7
  The contracting officer, COR, or designee may allow individuals who are needed immediately by Postal Service
management to have limited access to the Postal Service facility for up to 2 weeks, under the supervision of a Postal
Service employee, pending the receipt of the completed certifications for the basic clearance.


                                                          4
Review of the Postal Service’s                                                                       SA-MA-08-001
 Personnel Security Process


specifically state that employees must report violations of federal and state laws
resulting in arrests and convictions to management or the OIG.

Benchmarking Results

We benchmarked with two entities that require all or segments of their employees to
report arrests and convictions. TVA, which is an excepted service agency like the
Postal Service, has adopted a policy that specifically requires regular and contract
employees to notify their supervisor if they are arrested or charged with any criminal act.
Similarly, employees at one of the private sector entities we benchmarked with have
unescorted airport access privileges and are subject to the Transportation Security
Administration’s (TSA) mandated self-disclosure policy. This policy requires employees
with unescorted airport access to report convictions and criminal offenses to
management within 24 hours.8

Potential Gap

The Postal Service does not condone employee criminal behavior. By regulation,
Postal Service employees who are convicted of a violation of a criminal statute can be
subject to disciplinary action up to and including dismissal.9 Current Postal Service
policy conveys the sense that Postal Service employees are expected to obey the law
and can be dismissed if they do not. However, the policy does not require Postal
Service employees to report their criminal arrests and convictions to anyone in the
Postal Service, except for convicted sex offenders. A policy requiring employees to
report arrests and convictions could reduce the risk of exposure for Postal Service
employees, customers, the mail, and critical assets.

We did not make any recommendations concerning these two issues in this report,
however we may address them further in future audits of the Postal Service’s personnel
security processes and procedures. Although the OIG did not make recommendations,
we did provide Postal Service management with the opportunity to comment on any
issues identified in the report. The Vice President, Employee Resource Management,
provided comments which are included in their entirety in Appendix D.




8
  TSA requires employees to report criminal offenses such as importation or manufacture of a controlled substance,
extortion, bribery, rape, or aggravated sexual abuse and murder. The policy lists approximately 30 offenses that
should be reported.
9
  Postal Service Employment and Labor Relations Manual (ELM 18), Section 665.16 Behavior and Personal Habits,
June 2007 gives the Postal Service standards of conduct.


                                                         5
Review of the Postal Service’s                                             SA-MA-08-001
 Personnel Security Process



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.

 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc:     Michele L. Culp
        Juliana Nedd
        Mangala P. Gandhi
        Katherine S. Banks




                                          6
Review of the Postal Service’s                                                                          SA-MA-08-001
 Personnel Security Process


                       APPENDIX A: ADDITIONAL INFORMATION

Objective, Scope, and Methodology

Our objective was to assess the Postal Service’s personnel security processes and
procedures to determine whether they were comparable to other federal agencies and
selected private sector entities. The scope of our review entailed a review of the Postal
Service’s personnel security processes for regular and contract employees, including
suitability screening, background investigations, and security clearances.

To accomplish our objective, we obtained and reviewed applicable criteria, laws,
regulations, Postal Service policies and procedures, and other documentation pertaining
to our objective. We conducted interviews with Postal Service and USPIS personnel at
headquarters and at the SISC in Memphis, Tennessee. We also conducted interviews
with OPM personnel and other personnel deemed pertinent to this review. We
benchmarked with the following federal and private sector entities to obtain an
understanding of their personnel security processes: IRS, SSA, TVA, United Parcel
Service (UPS), and Dalsey, Hillblom, and Lynn (DHL). We selected these entities
because of their: exposure to the public, excepted service status,10 or business in the
mailing industry. We assured the private sector entities that any information they
provided would be used strictly for comparative purposes and would not be directly
attributed to their organization in our report. As a result, the report does not identify the
private sector entities regarding specific practices, policies, or procedures.

We conducted this review from July 2007 through February 2008 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with management officials on November
28, 2007 and included their comments where appropriate.

Prior Audit Coverage
The OIG issued three audit reports related to the personnel security process within the
past 3 years:

     •   Separation of Duties at the Eagan, Minnesota; San Mateo, California; and St.
         Louis, Missouri Information Technology and Accounting Service Center
         (Report Number IS-AR-07-017, dated August 29, 2007) – This report stated that,
         generally, policies, procedures, and internal controls were adequate to separate
         duties for personnel with access to critical information system resources at the
         data centers. However, controls to determine which career employees required
         sensitive security clearances needed strengthening. We recommended and
         management agreed to: assess the risk of the duties of all Information
         Technology (IT) and Accounting Service Center (ASC) positions; establish

10
  Excepted service agencies are not subject to the appointment, pay, and classification rules in Title 5, United States
Code. However, they are subject to veterans’ preference.


                                                           7
Review of the Postal Service’s                                                  SA-MA-08-001
 Personnel Security Process


        periodic reassessment of such risks; establish a central location to maintain a list
        of sensitive positions; notify the USPIS when new IT and ASC positions are
        created or a new employee is hired; and appropriately amend the Administrative
        Support Manual, Issue 13, Chapter 2, Section 272.

    •   Inspection Service Security Investigations Service Center (Report Number SA-
        AR-06-002, dated April 20, 2006) – This report stated that the SISC generally
        followed policies and procedures for managing and safeguarding closed cases
        and processing Freedom of Information Act requests. However, opportunities
        existed to improve the overall management of the background security clearance
        program, personnel security training, and the 1510 Mail Loss/Rifling Program to
        better support the USPIS mission. During the audit, SISC staff took corrective
        actions to address carryovers for background security clearances, personnel
        security training, and the 1510 Mail Loss/Rifling Program. Management agreed
        to ensure that SISC personnel receive formal annual and refresher training; and
        that postal inspectors review all Postal Service Form 1510, Mail Loss/Rifling,
        complaints before the complaints are destroyed. Management disagreed with
        establishing a comprehensive management plan to address erroneous data in
        the Security Clearance Tracking System and reduce its carryover of background
        investigations.

    •   Audit of Personnel Security Controls at the Eagan, San Mateo, and St. Louis
        Information Technology and Accounting Service Centers (Report Number IS-AR-
        04-011, dated September 8, 2004) – This report identified no exceptions in the
        review of initial security clearances and updates for contractors. However, the
        report concluded that the Postal Service did not consistently obtain security
        clearance updates for career employees. We recommended that the Vice
        President, Chief Technology Officer, direct the Security Control Officers in St.
        Louis and San Mateo to process security clearance updates as required for all
        Postal Service employees assigned to sensitive positions at the IT and ASCs.
        Management agreed with the recommendation.




                                              8
Review of the Postal Service’s                                                                                                                                SA-MA-08-001
 Personnel Security Process


                                                        APPENDIX B: SUITABILITY RESULTS
                                                         Employee and Contractor Suitability Results
                                                                                                                              Private Sector          Private Sector
                         Postal Service                  TVA                       SSA                      IRS
                                                                                                                                 Entity A                Entity B
                          District or area HR
                            office conducts       Personnel security        Suitability security      Personnel security
                                                                                                                               HR office conducts     HR office conducts
                           investigation for       office conducts           office conducts           office conducts
   Background                                                                                                                    investigation in       investigation in
                         regular employees;         investigation in          investigation in          investigation in
                                                                                                                              accordance with risk   accordance with risk
     Checks              contractor or vendor    accordance with risk      accordance with risk      accordance with risk
                                                                                                                              level for employees    level for employees
                        conducts investigation   level for employees       level for employees       level for employees
                                                                                                                                and contractors.       and contractors.
                              for contract         and contractors.          and contractors.          and contractors.
                              employees.

                         District HR manager
                        or designee for Postal    Personnel security                                Labor relations office
                                                                             Suitability security                                HR office for           HR office for
                         Service employees;       and suitability office                                for employees;
   Adjudication          contractor or vendor     for employees and
                                                                            office for employees
                                                                                                     personnel security
                                                                                                                                employees and           employees and
                                                                              and contractors.                                   contractors.            contractors.
                              for contract            contractors.                                  office for contractors.
                              employees.


                                                                                                       Every 5 years for
                                                 No system in place for
                                                                           No system in place for   employees in high-risk
                                                  regular employees.
                        No system in place for                              regular employees.         positions, such as
                                                   Fingerprint check
 Reinvestigations        regular or contract
                                                 upon contract renewal
                                                                             Fingerprint check       criminal investigators   No system in place.     No system in place.
                             employees.                                      every 5 years for          and executives.
                                                      for contract
                                                                            contract employees.       Every 5 years for all
                                                      employees.
                                                                                                          contractors.

                                                                                                                                                         Employees and
                                                                                                                                                      contract employees
                                                    Policy requiring
                                                                                                                                                        with unescorted
    Arrest and                                      employees and
                                                                                                                                                       airport access are
                                                  contractors to report
    Conviction                No policy.
                                                      arrests and
                                                                                 No policy.               No policy.               No policy.            subject to TSA
      Policy                                                                                                                                         policies, which require
                                                     convictions to
                                                                                                                                                          them to report
                                                     management.
                                                                                                                                                       convictions within
                                                                                                                                                            24 hours.




                                                                                       9
Review of the Postal Service’s                                                                                                                                SA-MA-08-001
 Personnel Security Process


                                                APPENDIX C: SECURITY CLEARANCE RESULTS
                                                Employee and Contractor Security Clearance Results
                                                                                                                            Private Sector         Private Sector
                        Postal Service                  TVA                      SSA                      IRS
                                                                                                                               Entity A               Entity B
                         FOLLOW OPM                FOLLOW OPM               FOLLOW OPM               FOLLOW OPM
                            GUIDANCE                  GUIDANCE                 GUIDANCE                 GUIDANCE
                         Applicants must           Applicants must          Applicants must          Applicants must
  Background                 undergo a                 undergo a                undergo a                undergo a
                                                                                                                            No federal security    No federal security
                            background                background               background               background
    Checks                                                                                                                     clearances.            clearances.
                          investigation.            investigation.           investigation.           investigation.
                      Minimum investigative     Minimum investigative    Minimum investigative    Minimum investigative
                      requirements correlate    requirements correlate   requirements correlate   requirements correlate
                           to risk levels.           to risk levels.          to risk levels.          to risk levels.



                      Security Investigations    Personnel security        Suitability security                             No federal security    No federal security
  Adjudication           Service Center.              office.                    office.
                                                                                                  Labor relations office.
                                                                                                                               clearances.            clearances.




                           Follow OPM                Follow OPM               Follow OPM               Follow OPM           No federal security    No federal security
Reinvestigations            guidelines.               guidelines.              guidelines.              guidelines.            clearances.            clearances.




                                                                                                                                                      Employees and
                                                                                                                                                    contract employees
                                                   Policy requiring
                                                                                                                                                      with unescorted
   Arrest and                                      employees and
                                                                                                                                                     airport access are
                                                 contractors to report                                                      No federal security
   Conviction               No policy.
                                                     arrests and
                                                                               No policy.               No policy.
                                                                                                                               clearances.
                                                                                                                                                       subject to TSA
     Policy                                                                                                                                       policies, which require
                                                    convictions to
                                                                                                                                                       them to report
                                                    management.
                                                                                                                                                   convictions within 24
                                                                                                                                                           hours.




                                                                                       10
Review of the Postal Service’s                          SA-MA-08-001
 Personnel Security Process


                    APPENDIX D: MANAGEMENT’S COMMENTS




                                   11
Review of the Postal Service’s        SA-MA-08-001
 Personnel Security Process




                                 12
Review of the Postal Service’s        SA-MA-08-001
 Personnel Security Process




                                 13
Review of the Postal Service’s        SA-MA-08-001
 Personnel Security Process




                                 14
